<html>
<title> - EPA ADVISORY COMMITTEES: HOW SCIENCE SHOULD INFORM DECISIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        EPA ADVISORY COMMITTEES:
                  HOW SCIENCE SHOULD INFORM DECISIONS

=======================================================================

                             JOINT HEARING

                              BEFORE THE

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT
                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2019

                               __________

                           Serial No. 116-38

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-035PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
      

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

              Subcommittee on Investigations and Oversight

              HON. MIKIE SHERRILL, New Jersey, Chairwoman
SUZANNE BONAMICI, Oregon             RALPH NORMAN, South Carolina, 
STEVE COHEN, Tennessee                   Ranking Member
DON BEYER, Virginia                  ANDY BIGGS, Arizona
JENNIFER WEXTON, Virginia            MICHAEL WALTZ, Florida
                                 ------                                

                      Subcommittee on Environment

                HON. LIZZIE FLETCHER, Texas, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
CONOR LAMB, Pennsylvania                 Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JIM BAIRD, Indiana
BEN McADAMS, Utah                    JENNIFFER GONZALEZ-COLON, Puerto 
DON BEYER, Virginia                      Rico
                         
                         
                         C  O  N  T  E  N  T  S

                             July 16, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative Ralph Norman, Ranking Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    12

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    13
    Written Statement............................................    14

Statement by Representative Roger Marshall, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    15
    Written Statement............................................    17

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18
    Written statement............................................    19

                               Witnesses:

Mr. J. Alfredo Gomez, Director, Natural Resources and 
  Environment, U.S. Government Accountability Office
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Thomas A. Burke, Jacob I. and Irene B. Fabrikant Professor 
  and Chair in Health Risk and Society, Bloomberg School of 
  Public Health, Johns Hopkins University
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Deborah Swackhamer, Professor Emerita, Humphrey School of 
  Public Affairs, University of Minnesota
    Oral Statement...............................................    44
    Written Statement............................................    46

Dr. Jonathan Samet, Dean, Colorado School of Public Health
    Oral Statement...............................................    51
    Written Statement............................................    53

Discussion.......................................................    84

             Appendix I: Answers to Post-Hearing Questions

Mr. J. Alfredo Gomez, Director, Natural Resources and 
  Environment, U.S. Government Accountability Office.............   102

Dr. Thomas A. Burke, Jacob I. and Irene B. Fabrikant Professor 
  and Chair in Health Risk and Society, Bloomberg School of 
  Public Health, Johns Hopkins University........................   104

Dr. Deborah Swackhamer, Professor Emerita, Humphrey School of 
  Public Affairs, University of Minnesota........................   108

Dr. Jonathan Samet, Dean, Colorado School of Public Health.......   113

 
                        EPA ADVISORY COMMITTEES:
                  HOW SCIENCE SHOULD INFORM DECISIONS

                              ----------                              


                         TUESDAY, JULY 16, 2019

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
        joint with the Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to notice, at 2:30 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Mikie 
Sherrill [Chairwoman of the Subcommittee on Investigations and 
Oversight] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Sherrill. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time. Good afternoon, and welcome to today's joint hearing 
of the Investigations and Oversight and Environment 
Subcommittees. I'm pleased to be here with my colleagues, 
Ranking Member Norman, Chair Fletcher, and Ranking Member 
Marshall. We're here today to discuss the vital role that 
advisory committees play in ensuring the Environmental 
Protection Agency's (EPA's) actions are informed, and supported 
by the best available science.
    Advisory committees have been, and continue to be, involved 
in issues of great importance to the advancement of knowledge, 
and the development of national policies and regulations. The 
EPA currently has 22 Federal advisory committees that provide 
advice to the EPA Administrator and other senior leaders on a 
variety of environmental and health issues. These committees 
consist of subject-matter experts who bring a range of skills 
and insight. The committee can include scientists, economists, 
health officials, and business leaders. Federal law, through 
the Federal Advisory Committee Act, or FACA, formalizes a 
process to ensure advice is solicited in an objective and 
transparent manner, and it requires each committee to be 
balanced in terms of the points of view and the functions to be 
performed. It's essential that these committees aid the EPA in 
fulfilling its mandate to protect human health and the 
environment.
    Unfortunately, over the course of the last 2-1/2 years 
we've seen a multi-pronged attack on these committees. In 2017, 
former Administrator Pruitt barred EPA grant holders, some of 
the most prominent researchers in their fields, from serving on 
advisory committees. Administrator Pruitt claimed this was to 
prevent conflicts of interest, but he did not prohibit people 
who are paid by the industries that the EPA regulates, an 
arguably greater conflict of interest, from serving on advisory 
committees. Administrator Pruitt also broke precedent and 
declined to renew the memberships of advisory committee members 
whose terms had not expired, flushing out years of experience, 
and bringing in a number of climate deniers and unqualified 
individuals, which weakens the quality and integrity of the 
advice the advisory committee offers.
    The attack on advisory committees at the EPA continued with 
the Administration's manipulations of the Clean Air Scientific 
Advisory Committee, or the CASAC. CASAC was established by 
Congress on a bipartisan basis as part of the 1977 amendments 
to the Clean Air Act. The architects of those amendments, Ed 
Muskie of Maine and Howard Baker of Tennessee, recognized a 
generation ago how important independent science advice would 
be to informing EPA's air quality programs. And, as I see it, 
healthy air to breathe remains a bipartisan concern for 
Congress. Unfortunately, last October Administrator Wheeler 
dismissed the Particulate Matter Review Panel of CASAC. This 
specialized 24-member panel was instituted under CASAC's 
authority to ensure that research on particulate matter, a 
known health hazard, was adequately reviewed before setting an 
updated health standard. Administrator Wheeler instead tasked 
the seven member CASAC with reviewing the science, even though 
it lacks an epidemiologist, among other vital specialties.
    In April, CASAC wrote a letter to Administrator Wheeler 
stating that they are ill equipped to review the draft 
assessment of particulate matter (PM), and requesting that he 
reinstate the expert sub-panel. However, the Administrator 
still has not acknowledged this request, and on Monday the EPA 
informed committee staff that there still is not a plan in 
place to respond to CASAC's letter, let alone to re-establish 
the expert panel. It's concerning that EPA intends to develop 
health standards based on the advice of a committee that itself 
admits it's underqualified to review the relevant science.
    This month the Government Accountability Office (GAO) 
issued a report outlining another mode of attack on advisory 
committees--the appointment process. GAO found that for two 
committees, the EPA Science Advisory Board and CASAC, EPA 
disregarded its own procedures for evaluating advisory 
committee candidates, and failed to assess nominees' financial 
disclosure reports. This undermines the transparency and 
integrity we expect from these important expert panels, and I 
look forward to hearing more about these findings from our GAO 
witness here today, Mr. Gomez.
    The attack on science extends beyond the EPA. On June 14 
the White House released an executive order requiring agencies 
to cut one-third of the FACA committees instituted under their 
purview. We know this won't save the government any money 
because it's an experiment that we have tried before. When a 
similar order was issued in the 1990s by President Clinton's 
Administration, it actually drove costs up by 3 percent. It 
appears that this order is an attempt to hinder agencies' 
ability to solicit objective, transparent, expert advice.
    So, I'm pleased to welcome our witnesses appearing here 
today. Before us we have individuals with a wealth of 
experience on EPA's vital scientific advisory committees, and I 
look forward to hearing about how these committees inform EPA's 
important work, and we can ensure the Agency is best serving 
the American people. So thank you for your willingness to 
appear before our Subcommittee, and for this hearing.
    [The prepared statement of Chairwoman Sherrill follows:]

    Good morning, and welcome to today's joint hearing of the 
Investigations and Oversight and Environment Subcommittees. I'm 
pleased to be here with my colleagues, Ranking Member Norman, 
Chair Fletcher, and Ranking Member Marshall.
    We're here today to discuss the vital role that advisory 
committees play in ensuring EPA's actions are informed and 
supported by the best available science. Advisory committees 
have been and continue to be involved in issues of great 
importance to the advancement of knowledge and the development 
of national policies and regulations. The EPA currently has 22 
Federal advisory committees that provide advice to the EPA 
administrator and other senior leaders on a variety of 
environmental and health issues. These committees consist of 
subject matter experts who bring a range of skills and insight. 
The committee can include scientists, economists, health 
officials, and business leaders. Federal law, through the 
Federal Advisory Committee Act, or FACA, formalizes a process 
to ensure advice is solicited in an objective and transparent 
manner, and it requires each committee to be balanced in terms 
of the points of view and the functions to be performed. It is 
essential that these committees aid EPA in fulfilling its 
mandate to protect human health and the environment.
    Unfortunately, over the course of the last two and a half 
years, we have seen a multi-pronged attack on these committees. 
In 2017, former Administrator Pruitt barred EPA grant holders - 
some of the most prominent researchers in their fields - from 
serving on advisory committees. Administrator Pruitt claimed 
this was to prevent conflicts of interest, but he did not 
prohibit people who are paid by the industries that EPA 
regulates - an arguably greater conflict of interest - from 
serving on advisory committees. Administrator Pruitt also broke 
precedent and declined to renew the memberships of advisory 
committee members whose terms had not expired, flushing out 
years of experience and bringing in a number of climate deniers 
and unqualified individuals, which weakens the quality and 
integrity of the advice the advisory committee offers.
    The attack on advisory committees at the EPA continued with 
the Administration's manipulations of the Clean Air Scientific 
Advisory Committee, or CASAC. CASAC was established by Congress 
on a bipartisan basis as part of the 1977 amendments to the 
Clean Air Act. The architects of those amendments - Ed Muskie 
of Maine and Howard Baker of Tennessee - recognized a 
generation ago how important independent science advice would 
be to informing EPA's air quality programs. And as I see it, 
healthy air to breathe remains a bipartisan concern for 
Congress.
    Unfortunately, last October, Administrator Wheeler 
dismissed the Particulate Matter Review Panel of CASAC. This 
specialized 24-member panel was instituted under CASAC's 
authority to ensure that research on particulate matter - a 
known health hazard - was adequately reviewed before setting an 
updated health standard. Administrator Wheeler instead tasked 
the seven-member CASAC with reviewing the science, even though 
it lacks an epidemiologist, among other vital specialties.
    In April, CASAC wrote a letter to Administrator Wheeler, 
stating that they are ill-equipped to review the draft 
assessment of particulate matter and requesting that he 
reinstate the expert subpanel. However, the Administrator still 
has not acknowledged this request. On Monday, EPA informed 
Committee staff that there still is not a plan in place to 
respond to CASAC's letter, let alone to reestablish the expert 
panel. It is concerning that EPA intends to develop health 
standards based on the advice of a committee that admits it is 
unqualified to review the relevant science.
    This month, the Government Accountability Office issued a 
report outlining another mode of attack on advisory committees 
- the appointment process. GAO found that for two committees, 
the EPA Science Advisory Board and CASAC, EPA disregarded its 
own procedures for evaluating advisory committee candidates and 
failed to assess nominees' financial disclosure reports. This 
undermines the transparency and integrity we expect from these 
important expert panels. I look forward to hearing more about 
these findings from our GAO witness today, Mr. Gomez.
    The attack on science extends beyond EPA. On June 14, the 
White House released an executive order requiring agencies to 
cut one third of the FACA committees instituted under their 
purview. We know this won't save the government any money, 
because this is an experiment we have tried before. When a 
similar order was issued in the nineties by President Clinton's 
administration, it actually drove costs up by 3 percent. It 
appears that this order is an attempt to hinder agencies' 
ability to solicit objective, transparent, expert advice.
    I'm pleased to welcome our witnesses appearing here today. 
Before us we have individuals with a wealth of experience on 
EPA's vital scientific advisory committees. I look forward to 
hearing about how these committees inform EPA's important work, 
and we can ensure the Agency is best serving the American 
people. Thank you for your willingness to appear before our 
Subcommittees for this hearing.

    Chairwoman Sherrill. The Chair now recognizes Mr. Norman 
for an opening statement.
    Mr. Norman. Thank you, Chairwoman Sherrill, and Chairwoman 
Fletcher, for convening this hearing. We're here today to 
discuss the current state of the Federal advisory committees, 
specifically at the EPA, and the appointment process for these 
committees. Unfortunately, this hearing is less of a 
discussion, rather than just another example of partisan 
politics, unfortunately. By limiting the scope of this hearing 
specifically to the EPA, the majority has prevented us from 
conducting oversight of other agencies within our jurisdiction.
    But even the narrow focus of the EPA wasn't enough. While 
the Science Advisory Board, the SAB, the Board of Scientific 
Counselors, the BOSC, and the Clean Air Scientific Advisory 
Committees, the CASAC, are all represented here today, they 
seem to be the only ones that we'll be discussing. Along with 
EPA's other advisory committees, the SAB and the CASAC build 
scientific consensus, and provide input and recommendations 
from the EPA's diverse stakeholders.
    While our witnesses do valuable work for their panels, they 
only represent three of EPA's 22 committees. That means, in a 
hearing about EPA's advisory committees, 19 committees are 
unrepresented, as well as every other agency's Federal advisory 
committees. Why are we limiting this hearing, when so many more 
panels fall within the Science Committee's jurisdictions? My 
colleagues on the other side of the aisle seem to be using this 
opportunity as a thinly veiled cover to simply attack the EPA 
and this Administration's effort to improve the selection 
process.
    Today we'll hear about how academics are supposedly being 
kicked off these committees, and the critical steps were 
overlooked in the appointment process. But, upon further 
examination of the data, including data produced by the GAO in 
their report, I believe this Committee needs to carefully 
examine the facts around these misleading assumptions. The 
purpose of the Federal Advisory Committee Act, FACA, is clear. 
Committees should be fairly balance in expertise and points of 
view. Yet, in 2017, 77 percent of SAB members represented 
academia. Having over three-fourths of a panel affiliated with 
one stakeholder group doesn't strike me as being balanced. It 
is clear to me that EPA's leadership followed the direction of 
the law as they worked to restore balance to this critical 
committee.
    We will also discuss GAO's findings that 20 members of SAB 
and CASAC were appointed without EPA staff providing a 
membership grid with recommendations. While this step is 
detailed in EPA's internal policy guidelines, no law was 
broken, and no mismanagement occurred. Instead, senior 
officials at the EPA replaced this step with a more rigorous 
process, where the Administrator was thoroughly briefed on the 
qualification of multiple candidates. It is the Administrator's 
job to set guidance, and ensure the Agency can achieve its 
goals. We should be applauding him for taking the time to 
examine each candidate, and, in an effort to do better, the 
appointment process. I also want to commend the Science 
Advisory Board Staff Office, the SABSO, for their diligent work 
to ensure the best candidates are chosen to serve on the FACs. 
Sadly, these individuals are not present as we evaluate whether 
the new review process is effective.
    The rushed nature of this hearing is disappointing, yet not 
surprising to me. Members of this Committee were given limited 
time to review the GAO's report, which was released 24 hours 
ago. I want to thank Mr. Gomez for being here to walk us 
through it, but I know we could've had a more productive 
discussion if we all had time to read it and understand it. I'm 
sure we'll have another hearing on President Trump's executive 
order on Federal advisory committees, so why we rushed to hold 
this narrow Subcommittee hearing is beyond me, when, in just a 
week or two, we would've had more knowledge, could involve more 
members, and have a broader debate. The only answer I came to 
is that the majority would've missed the chance to take another 
partisan swing at the Trump Administration. Moving forward, I 
hope we can take a more holistic approach, and allow Members 
the time to review the data before jumping to skewed 
conclusions.
    Thank you, Madam Chair, and I yield back the balance of my 
time.
    [The prepared statement of Mr. Norman follows:]

    Thank you, Chairwoman Sherrill and Chairwoman Fletcher, for 
convening this hearing.
    We are here today to discuss the current state of Federal 
advisory committees, specifically at the EPA, and the 
appointment process for these committees.
    Unfortunately, this hearing is less of a discussion, rather 
just another example of partisan politics. By limiting the 
scope of this hearing ``specifically'' to the EPA, the majority 
has prevented us from conducting oversight of other agencies 
within our jurisdiction.
    But even the narrow focus on the EPA wasn't enough. While 
the Science Advisory Board (SAB), the Board of Scientific 
Counselors (BOSC), and the Clean Air Scientific Advisory 
Committee (CASAC) are all represented here today, they seem to 
be the only ones we'll be discussing.
    Along with EPA's other advisory committees, the SAB and 
CASAC build scientific consensus and provide input and 
recommendations from EPA's diverse stakeholders.
    While our witnesses do valuable work for their panels, they 
only represent three of EPA's 22 committees.
    That means - in a hearing about EPA's advisory committees - 
19 committees are unrepresented, as well as every other 
agencies' Federal Advisory Committees
    Why are we limiting this hearing when so many more panels 
fall within the Science Committee's jurisdiction? My colleagues 
on the other side of the aisle seem to be using this 
opportunity as a thinly veiled cover to simply attack the EPA 
and this Administration's effort to improve the selection 
process.
    Today, we'll hear about how academics are supposedly being 
kicked off these committees and that critical steps were 
overlooked in the appointment process. But upon further 
examination of the data, including data provided by GAO in 
their report, I believe this Committee needs to carefully 
examine the facts around these misleading assumptions.
    The purpose of the Federal Advisory Committee Act (FACA) is 
clear: committees should be fairly balanced in expertise and 
points of view. Yet, in 2017, 77% of S-A-B members represented 
academia.
    Having over three-fourths of a panel affiliated with one 
stakeholder group doesn't strike me as balanced. It is clear to 
me that EPA leadership followed the direction of the law as 
they worked to restore balance to this critical committee.
    We'll also discuss GAO's finding that 20 members of SAB and 
CASAC were appointed without EPA staff providing a membership 
grid with recommendations. While this step is detailed in EPA's 
internal policy guidelines, no law was broken and no 
mismanagement occurred.
    Instead, senior officials at the EPA replaced this step 
with a more rigorous process, where the Administrator was 
thoroughly briefed on the qualifications of multiple 
candidates.
    It is the Administrator's job to set guidance and ensure 
the agency can achieve its goals. We should be applauding him 
for taking the time to examine each candidate in an effort to 
better the appointment process.
    I also want to commend the Science Advisory Board Staff 
Office (SABSO), for their diligent work to ensure the best 
candidates are chosen to serve on FACs. Sadly, these 
individuals are not present as we evaluate whether the new 
review process is effective.
    The rushed nature of this hearing is disappointing, yet not 
surprising, to me. Members of this Committee were given limited 
time to review GAO's report, which was released just 24 hours 
ago.
    I thank Mr. Gomez for being here to walk us through it, but 
I know we could have had a more productive discussion if we all 
had time to read it and understand it.
    I'm sure we will have another hearing on President Trump's 
Executive Order on Federal Advisory Committees.
    So why we rushed to hold this narrow subcommittee hearing 
is beyond me, when in just a week or two, we would have more 
knowledge, could involve more members, and have a broader 
debate? The only answer I came to is that the majority would 
have missed the chance to take another partisan swing at this 
Administration.
    Moving forward, I hope that we can take a more holistic 
approach and allow members the time to review the data before 
jumping to skewed conclusions.
    Thank you, Madam Chair, and I yield back the balance of my 
time.

    Chairwoman Sherrill. Thank you. And the Chair now 
recognizes the Chair for the Subcommittee on the Environment, 
Mrs. Fletcher, for an opening statement.
    Chairwoman Fletcher. Good afternoon. I would like to join 
Chairwoman Sherrill in welcoming all of our witnesses to 
today's hearing on advisory committees at the EPA. The EPA is, 
at its core, a public health agency. It works to protect all 
Americans, especially the vulnerable populations from polluted 
air, water, and soil. The EPA promulgates environmental 
standards and protections that are informed by the most 
cutting-edge science. Much of this science is conducted at the 
Agency by dedicated career scientists and engineers, and 
through extramural research grants funded by the EPA. However, 
a critical component to ensuring the best science is utilized 
by the Agency is through expert advisory committees and boards 
that provide external advice and recommendations on a variety 
of topics.
    Advisory committees have long played a vital role in the 
Federal Government to supplement the knowledge of Federal 
agencies by providing additional expertise. The advisory 
committee process is an opportunity for public engagement and 
Federal decisionmaking, as meetings are generally accessible to 
the public. As Chairwoman Sherrill discussed, Congress, 
understanding the need for independent scientific advice to 
inform the EPA Administrator's regulatory decisionmaking, 
established the Clean Air Scientific Advisory Committee, or 
CASAC, and the EPA Science Advisory Board, SAB. These 
committees allow EPA to broaden its access to additional 
scientific expertise not contained within the Agency itself.
    Scientific advisory committees at the EPA provide advice 
and recommendations that are used to inform research, 
regulation standards, compliance, and enforcement functions of 
the Agency. The CASAC plays a critical role in reviewing the 
National Ambient Air Quality Standards, or NAAQS, by calling 
upon specialized expertise to ensure that the most robust and 
relevant science is used to protect the air that we breathe. 
The Science Advisory Board, by far the largest advisory 
committee at the EPA, provides feedback on science throughout 
the Agency's decisionmaking process, while the Board of 
Scientific Counselors, or BOSC, informs the EPA's science and 
research priorities.
    Appointment to these and other advisory boards at the EPA 
has historically been considered a great honor, a recognition 
of the member's preeminence and expertise in the field. We are 
fortunate to have three such experts who have served as members 
and chairs of CASAC, SAB, and the BOSC as part of our 
distinguished witness panel today. My colleague expressed 
frustration that other committees are not present at this 
hearing, and I would like to note that the minority, as always, 
was given an opportunity to invite whomever they saw fit, and 
declined. Further, I believe this panel is more than qualified 
to address the matter at hand. Mr. Gomez has presented the 
facts on the grounds from his thorough audit of the Agency, and 
our three other witnesses bring years of experience of public 
service, both within and outside the Agency. I do anticipate 
that there will be future hearings on these issues, and 
encourage the minority to take all future opportunities to 
invite witnesses to these important hearings.
    Given the clear role the advisory committees play in 
helping the EPA meet its mission, the finding of the GAO's 
report yesterday raises serious concerns, and identified 
problems with the three committees that are before us today. 
The deficiencies in the appointment process found for the SAB 
and CASAC are very troubling, as these committees are 
responsible for reviewing the science that underpins many 
Agency decisions that directly impact public health.
    According to the Federal Advisory Committee Act, members of 
these boards should be clear of conflicts of interest, and meet 
the highest ethical standards before joining advisory 
committees. EPA's inconsistent compliance with its own ethics 
policy related to advisory committee members raises doubts 
about the Agency's actions. The American people should feel 
confident that all our agencies, including and especially the 
EPA, are operating in their best interest--protecting them, not 
sidelining transparency as a means to an end. The President's 
recent executive order, purportedly to improve Federal advisory 
committees, does not seem to have a basis for requiring the 
termination of one-third of Agency advisory committees, and 
instituting a limit of committees across the Federal 
Government. I want to commend Chairwoman Johnson for asking the 
agencies within this Committee's jurisdiction how they plan on 
implementing this order so we can try to ensure that valuable 
scientific expertise is not indiscriminately cut because of 
arbitrary limits.
    The EPA is responsible for protecting public and 
environmental health through the application of strong science 
to environmental and regulatory decisions throughout the 
Agency. Baseless attempts to modify, change, and, in some 
cases, undermine the Agency's established process to accomplish 
this goal should be of concern to us all. I look forward to 
discussing the troubling findings of this GAO report, as well 
as hearing from our other distinguished witnesses, who have 
served on multiple advisory committees and the EPA, how these 
findings will impact the future of science at the Agency. With 
that, I yield back.
    [The prepared statement of Chairwoman Fletcher follows:]

    Good afternoon. I would like to join Chairwoman Sherrill in 
welcoming all of our witnesses to today's hearing on advisory 
committees at the EPA.
    The EPA is at its core a public health agency. It works to 
protect all Americans, especially the most vulnerable 
populations, from polluted air, water, and soil. The EPA 
promulgates environmental standards and protections that are 
informed by the most cutting-edge science. Much of this science 
is conducted at the Agency by dedicated career scientists and 
engineers, and through extramural research grants funded by the 
EPA. However, a critical component to ensuring the best science 
is utilized by the Agency is through expert advisory committees 
and boards that provide external advice and recommendations on 
a variety of topics.
    Advisory committees have long played a vital role in the 
Federal Government to supplement the knowledge of Federal 
agencies by providing additional expertise. The advisory 
committee process is an opportunity for public engagement in 
Federal decision-making, as meetings are generally accessible 
to the public. Congress, understanding the need for independent 
scientific advice to inform the EPA Administrator's regulatory 
decision making, established the Clean Air Scientific Advisory 
Committee, or CASAC, and the EPA Science Advisory Board, or 
SAB. These committees allow EPA to broaden its access to 
additional scientific expertise not contained within the Agency 
itself.
    Scientific advisory committees at the EPA provide advice 
and recommendations that are used to inform research, 
regulations, standards, compliance, and enforcement functions 
of the Agency. The CASAC plays a critical role in reviewing the 
National Ambient Air Quality Standards, or NAAQS by calling 
upon specialized expertise to ensure that the most robust and 
relevant science is used to protect the air we breath. The 
Science Advisory Board, by far the largest advisory committee 
at the EPA, provides feedback on science throughout the 
Agency's decision-making process, while the Board of Scientific 
Counselors, or BOSC, informs the EPA's science and research 
priorities.
    Appointment to these, and other, advisory boards at the EPA 
has historically been considered a great honor; a recognition 
of the member's preeminence and expertise in the field. We are 
very fortunate to have three such experts who have served as 
members and Chairs of the CASAC, SAB, and the BOSC, as part of 
our distinguished witness panel today.
    Given the clear role advisory committees play in helping 
EPA meet its mission, the findings of the GAO's report released 
yesterday raise serious concerns. The deficiencies in the 
appointment process found for the SAB and CASAC are very 
troubling as these committees are responsible for reviewing the 
science that underpins many Agency decisions that directly 
impact public health. According to the Federal Advisory 
Committee Act, members of these boards should be clear of 
conflicts of interest and meet the highest ethical standards 
before joining advisory committees. EPA's inconsistent 
compliance with its own ethics policy related to advisory 
committee members raises doubts about the Agency's actions. The 
American people should feel confident that all our agencies, 
including and especially the EPA are operating in their best 
interest, protecting them - not sidelining transparency as a 
means to an end.
    The President's recent Executive Order purportedly 
``improve'' Federal advisory committees does not seem to a have 
a basis for requiring the termination of one-third of Agency 
advisory committees and instituting a limit of committees 
across the Federal Government. I want to commend Chairwoman 
Johnson for asking the agencies within this Committee's 
jurisdiction how they plan on implementing this Order so that 
we can try to ensure that valuable scientific expertise is not 
indiscriminately cut because of arbitrary limits.
    The EPA is responsible for protecting public and 
environmental health through the application of strong science 
to environmental and regulatory decisions throughout the 
Agency. Baseless attempts to modify, change, and in some cases 
undermine, the Agency's established processes to accomplish 
this goal should be of concern to us all.
    I look forward to discussing the troubling findings of this 
GAO report, as well as hearing from our other distinguished 
witnesses who have served on multiple advisory committees at 
the EPA, how these findings will impact the future of science 
at the Agency.
    And with that I yield back the balance of my time.

    Chairwoman Sherrill. Thank you. The Chair now recognizes 
the Ranking Member for the Subcommittee on Environment, Mr. 
Marshall, for an opening statement.
    Mr. Marshall. Thank you so much, Chairwoman Sherrill, and 
Ranking Member Norman, for holding this hearing. First and 
foremost, I'd like to address what seems to be the elephant in 
the room, President Trump's executive order on Federal advisory 
committees. While not explicitly stated as part of the purpose 
of this hearing, I think we can all see the majority's 
intention is to make this hearing a chance for former EPA 
advisory members to defend the charter of their committee. As 
Mr. Norman mentioned, we all agree EPA's major advisory 
committees, these mandatory committees, especially the Science 
Advisory Board, and Clean Air Scientific Advisory Committee, 
play a strategic role in carrying out the mission to protect 
human health and the environment. No one's proposing we 
eliminate those mandatory panels, or the critical input they 
provide to the Agency.
    But the President's executive order isn't focused on these, 
or any other committee authorized by Congress. It doesn't even 
direct agencies to keep or terminate any particular committee. 
It's focused on halting wasteful spending, and improving the 
quality of our advisory committees governmentwide. President 
Trump's executive orders direct each agency to review their 
advisory committees, eliminate one-third of their discretionary 
advisory committees, and caps the total number of discretionary 
committees at 350 across the Federal Government. From what I've 
seen in the media, people take this to mean President Trump is 
trying to eliminate hundreds of advisory committees because he 
doesn't value the science they provide. Nothing could be 
further from the truth. The executive order clearly states that 
one-third of discretionary advisory committees should be 
eliminated. Discretionary advisory committees are those 
committees created by an agency head at some point, not through 
law or executive order. Based on the text of the executive 
order, EPA would need to eliminate just two committees to 
comply.
    Next let's address the impact of capping the total number 
of discretionary committees at 350. Currently there are over 
1,000 Federal advisory committees. Again, let's look at those 
actual words in the executive order, which states that the cap 
applies only to discretionary committees. At present there are 
just over 400 discretionary committees. Eliminating 50 
committees, especially as there has not been a systemic review 
in 26 years, does not seem like a daunting challenge to me. I 
think it's important to note that President Reagan issued a 
memorandum similarly to this in 1985, and President Clinton 
issued an executive order in 1993 requiring the exact same one-
third elimination as President Trump. So, historically, 
ensuring we are maximizing the use of our Federal advisory 
committees has been a bipartisan effort. It's critical that we 
review advisory committees to ensure their alignment with the 
current needs and mission of this Agency. Think about how 
science can change in just a few years: 26 years ago the first 
smartphone was still a decade away from introduction, and now 
it seems that everyone is able to use one. This executive order 
will help Federal agencies re-evaluate their needs, and focus 
on the future of science, not the needs of the past.
    The final issue to highlight is what appears to be a narrow 
and limiting scope of this hearing. The Science Committee has 
jurisdiction over $42 billion in Federal research and 
development, including numerous agencies with Federal advisory 
committees. If my colleagues in the majority were genuine about 
examining how science informs decisions at Federal agencies, 
we'd be hearing from representatives from other agencies like 
NASA, Department of Energy, and the National Science 
Foundation. Each of these have their own advisory committees 
with unique needs and challenges. Narrowing the focus on this 
hearing to just EPA, which only has 2 percent of the Federal 
advisory committees, is puzzling. I'd also like to mention that 
the two EPA committees we will talk about the most today, SAB 
and CASAC, are authorized by statute, and therefore ineligible 
to be eliminated by the EPA Administrator under the executive 
order. I believe there is a need to conduct oversight of the 
1,000 advisory committees currently in operation, as well as 
the $400 million these committees cost the taxpayer each year. 
That's $400,000 per committee, by my math.
    I encourage my colleagues in the majority work with us to 
conduct meaningful oversight of these committees, and the best 
way to manage them efficiently and effectively. Instead, we 
find ourselves here today, focused on the smallest fraction of 
our Committee's jurisdiction. Thank you, Madam Chair, and I 
yield back.
    [The prepared statement of Mr. Marshall follows:]

    Thank you for holding this hearing, Chairwoman Sherrill and 
Ranking Member Norman.
    First and foremost, I'd like to address what seems to be 
the elephant in the room: President Trump's Executive Order on 
Federal Advisory Committees. While not explicitly stated as 
part of the purpose for this hearing, I think we can all see 
the majority's intention is to make this hearing a chance for 
former EPA advisory members to defend the charter of their 
committee.
    As Mr. Norman mentioned, we all agree EPA's major advisory 
committees, especially the Science Advisory Board (SAB) and 
Clean Air Scientific Advisory Committee (CASAC), play a 
strategic role in carrying out the mission to protect human 
health and the environment.
    No one is proposing we eliminate those panels or the 
critical input they provide to the Agency.
    But the President's Executive Order isn't focused on those, 
or any other committee authorized by Congress. It doesn't even 
direct agencies to keep or terminate any particular committee. 
It is focused on halting wasteful spending and improving the 
quality of our advisory committees government-wide.
    President Trump's Executive Order directs each agency to 
review their advisory committees, eliminate one-third of their 
discretionary advisory committees, and caps the total number of 
discretionary committees at 350 across the Federal Government.
    From what I've seen in the media, people take this to mean 
President Trump is trying to eliminate hundreds of advisory 
committees because he doesn't value the science they provide. 
Nothing could be further from the truth.
    The Executive Order clearly states that one-third of 
discretionary advisory committees should be eliminated. 
Discretionary advisory committees are those committees created 
by an agency head at some point, not through law or executive 
order. Based on the text of the Executive Order, EPA would need 
to eliminate just two committees to comply.
    Next let's address the impact of capping the total number 
of discretionary committees at 350. Currently, there are just 
over 1,000 Federal Advisory Committees. Again, let's look at 
the actual words in the Executive Order, which state that the 
cap applies only to discretionary committees. At present, there 
are just over 400 discretionary committees. Eliminating 50 
committees - especially after there has not been a systematic 
review in 26 years - does not seem like a daunting challenge to 
me.
    I think it's important to note that President Reagan issued 
a memorandum similar to this in 1985, and President Clinton 
issued an executive order in 1993 requiring the exact same one-
third elimination as President Trump. So historically, ensuring 
we are maximizing the use of our Federal Advisory Committees 
has been a bipartisan effort.
    It is critical that we review advisory committees to ensure 
their alignment with the current needs and mission of each 
agency. Think of how science can change in just a few years. 
Twenty-six years ago, the first smartphone was still a decade 
away from introduction - and now everyone seems to always be on 
one. This executive order will help Federal agencies reevaluate 
their needs and focus on the future of science, not the needs 
of the past.
    The final issue I'd like to highlight is what appears to be 
a narrow and limiting scope of this hearing. The Science 
Committee has jurisdiction over $42 billion in Federal research 
and development, including numerous agencies with Federal 
advisory committees.
    If my colleagues in the majority were genuine about 
examining how science informs decisions at Federal agencies, we 
would be hearing from representatives from other agencies like 
NASA, the Department of Energy, and the National Science 
Foundation. Each of these has its own advisory committees with 
unique needs and challenges. Narrowing the focus of this 
hearing to just the EPA, which only has 2% of all Federal 
Advisory Committees, is puzzling to me.
    I'd also like to mention that the two EPA committees we 
will talk about the most today, SAB and CASAC, are authorized 
by statute and therefore ineligible to be eliminated by the EPA 
Administrator under the Executive Order.
    I believe there is a need to conduct oversight of the 1,000 
advisory committees currently in operation, as well as the $400 
million these committees cost the taxpayer each year.
    I encourage my colleagues in the majority to work with us 
to conduct meaningful oversight of these committees and the 
best way to manage them efficiently and effectively. Instead, 
we find ourselves here today, focused on the smallest fraction 
of our Committee's jurisdiction. Thank you, Madam Chair. I 
yield back.

    Chairwoman Sherrill. Thank you. And we are honored today to 
have the Full Committee Chairwoman, Ms. Johnson, with us today. 
The Chair now recognizes the Chairwoman for an opening 
statement.
    Chairwoman Johnson. Thank you very much, and let me thank 
both Chairs, and both Ranking Members. I'd like to join you 
also in welcoming our witnesses this afternoon. In fact, we 
have a panel full of familiar faces today. Every member of our 
distinguished panel has offered their expertise to this 
Committee in the past, and I'm honored to welcome some of you 
back, and some of the most esteemed voices in environmental and 
health science in the Nation. Thanks to each of you for your 
tireless work, both in academia and on various EPA advisory 
committees. And thanks to you, Mr. Gomez of the GAO, for 
ensuring these important committees operate effectively.
    Science advisory committees are crucial to ensuring the 
best science informs all aspects of decisionmaking at the 
Environmental Protection Agency. They provide the expertise 
that allows us to be sure we are protecting the health of 
Americans and our environment to the best of our ability. It 
has been troubling to observe these important committees being 
dismantled and manipulated over the past 2-1/2 years. The most 
recent blow to advisory committees was an executive order 
issued by the President in June. This order directed agencies 
to cut one-third of FACA committees not established by Congress 
or the President. It also caps the total number of FACA 
committees at 350 across the Federal Government. Such 
directives are clumsy at best, and malicious at worst. There's 
no reason to presume that one-third of the committees have 
exhausted their usefulness. A cap on committees serves only to 
create a barrier for agencies to solicit expert advice in a 
transparent manner.
    Last week, I did send a letter to science agencies 
inquiring about the metrics they will use to determine which 
committees to cut. I look forward to reviewing these responses. 
I hope that the White House will reconsider this harmful order, 
which serves only to decrease the transparency of the advice 
solicited by agencies across the government. I would be remiss 
not to mention the circumstances under which Dr. Swackhamer 
joined us the last time she testified before this Committee. 
Just as today, Dr. Swackhamer testified in her capacity as an 
independent scientist back in 2017. However, days before the 
hearing, she was contacted by an EPA political official, who 
had somehow obtained a copy of her prepared remarks, and 
encouraged her to edit her testimony in a manner I consider to 
be misleading. I hope Dr. Swackhamer has not experienced 
similar interference in her preparation to join us here today.
    Unfortunately, we have yet to receive a final report on 
this matter from the EPA Inspector General. I look forward to 
hearing from all of you. Transparency and the application of 
credible science is a cornerstone of environmental and public 
health protections. I look forward to working with my 
colleagues, and today's distinguished witnesses, to ensuring 
that EPA continues to value these principles. Thank you, and I 
yield back to Congresswoman Sherrill. Thank you.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you to both our Chairs, and I would like to join you 
in welcoming our witnesses this afternoon. In fact, we have a 
panel full of familiar faces today - every member of our 
distinguished panel has offered their expertise to this 
Committee in the past, and I'm honored to welcome back some of 
the most esteemed voices in environmental and health science in 
the nation. Thank you to each of you for your tireless work 
both in academia and on various EPA advisory committees. And 
thank you to Mr. Gomez of the GAO for ensuring these important 
committees operate effectively.
    Science advisory committees are crucial to ensuring the 
best science informs all aspects of decision making at the 
Environmental Protection Agency. They provide the expertise 
that allows us to be sure we are protecting the health of 
Americans and our environment to the best of our ability. It 
has been troubling to observe these important committees being 
dismantled and manipulated over the past two and a half years.
    The most recent blow to advisory committees was the 
Executive Order issued by the President in June. This order 
directed agencies to cut one third of FACA committees not 
established by Congress or the President. It also caps the 
total number of FACA committees at 350 across the Federal 
Government. Such directives are clumsy at best and malicious at 
worst - there is no reason to presume that one third of 
committees have exhausted their usefulness. A cap on committees 
serves only to create a barrier for Agencies to solicit expert 
advice in a transparent manner. Last week, I sent a letter to 
science agencies inquiring about the metrics they will use to 
determine which committees to cut. I look forward to reviewing 
their responses. I hope the White House will reconsider this 
harmful order which serves only to decrease the transparency of 
the advice solicited by agencies across the government.
    I would be remiss not to mention the circumstances under 
which Dr. Swackhamer joined us the last time she testified 
before the Committee. Just as today, Dr. Swackhamer testified 
in her capacity as an independent scientist back in 2017. 
However, days before the hearing, she was contacted by an EPA 
political official who had somehow obtained a copy of her 
prepared remarks and encouraged her to edit her testimony in a 
manner I consider to be misleading. I hope Dr. Swackhamer has 
not experienced similar interference in her preparation to join 
us here today.
    Unfortunately, we have yet to receive a final report on 
this matter from the EPA Inspector General. I look forward to 
hearing from them.
    Transparency and the application of credible science is a 
cornerstone of environmental and public health protections. I 
look forward to working with my colleagues, and today's 
distinguished witnesses, to ensuring the EPA continues to value 
these principles.
    Thank you, and I yield back to Chairwoman Sherrill.

    Chairwoman Sherrill. Thank you. And if there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point. At this 
time I would like to introduce our witnesses.
    Mr. Alfredo Gomez is the Director of Natural Resources and 
Environment at the U.S. Government Accountability Office. His 
office authored the recently released GAO report, ``EPA 
Advisory Committees: Improvements Needed For the Member 
Appointment Process,'' which we will be discussing today.
    Dr. Thomas Burke is a professor, and the Chair in Health 
Risk and Society at the Bloomberg School of Public Health at 
Johns Hopkins University. Prior to his current position, Dr. 
Burke served as the EPA Science Advisory and Deputy Assistant 
Administrator for Research and Development from January 2015 to 
January 2017. He also served on EPA's Science Advisory Board, 
and is a founding member of the Board of Scientific Counselors.
    Next we have Dr. Deborah Swackhamer. Dr. Swackhamer is a 
Professor Emerita at the University of Minnesota's Humphrey 
School of Public Affairs. Previously, she served in a number of 
scientific advisory positions, including Chair of the EPA 
Science Advisory Board from 2008 to 2012, and Chair of the 
Board of Science Counselors from 2015 to 2017.
    And, last, we have Dr. Jonathan Samet, the Dean of the 
Colorado School of Public Health. Dr. Samet served as Chair of 
the EPA Clean Air Scientific Advisory Committee from 2008 to 
2012. And we will start with Mr. Gomez.

                 TESTIMONY OF J. ALFREDO GOMEZ,

          DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Gomez. Chairwomen Sherrill and Fletcher, Ranking 
Members Norman and Marshall, and Members of the Subcommittee, 
good afternoon. I'm pleased to be here. My statement today 
summarizes key findings from our report on the U.S. 
Environmental Protection Agency's process for appointing 
members to the Federal advisory committees it manages under the 
Federal Advisory Committee Act. These committees play an 
important role at EPA by providing advice that helps the Agency 
develop regulations, accredit laboratories, and manage research 
programs, among other activities. Our report describes EPA's 
established process for appointing members to serve on EPA 
advisory committees. It evaluates the extent to which EPA 
followed its process for Fiscal Year 2017 through March 2018, 
and describes how, if at all, EPA's advisory committees changed 
after January 2017. As it's been noted, at the time of our 
report EPA had 22 advisory committees, and the way we conducted 
our work, we reviewed relevant Federal laws, regulations, and 
guidance, and reviewed all EPA appointment documentation for 17 
of the 22 committees that appointed members for Fiscal Years 
2017 through March 2018.
    With regards to the first finding, EPA has established--has 
an established process for appointing advisory committee 
members that involves three main phases: Soliciting 
nominations, evaluating candidates, and obtaining approvals 
from relevant EPA offices before the Administrator, or Deputy 
Administrator, makes final decisions. This process is laid out 
in the Agency's ``Federal Advisory Committee Handbook.'' Each 
phase involves several steps. For example, a key step for 
evaluating candidates involves EPA preparing documents that 
reflect staff recommendations on the best qualified and most 
appropriate candidates for achieving balanced committee 
membership.
    In evaluating the extent to which EPA followed its process, 
we found that EPA followed its process for all of the 
committees we reviewed, except for two: The EPA Science 
Advisory Board and the Clean Air Scientific Advisory Committee. 
EPA did not follow a key step for appointing 20 members to 
these two committees. We found that the appointment packets for 
these two committees did not contain documents to reflect staff 
recommendations on the best qualified and most appropriate 
candidates to serve on advisory committees, which is called for 
in the EPA's established process. Instead of developing these 
documents, EPA stated that they held a series of briefings with 
senior management. EPA management then decided whom to appoint 
after reviewing the entire list of personnel nominated for 
committee membership. EPA stated that this change is within the 
discretion of the Administrator, and was a more robust process.
    We agree that conducting such briefings is within the 
discretion of the Administrator. However, it remains that, for 
these two committees, EPA did not follow its established 
committee appointment process that I just described. If it had 
followed its established process, staff assessments of the best 
qualified candidates would have been documented in a 
transparent way in the appointment packets. In addition, EPA 
would have had better assurance that its committee appointment 
procedures were uniform, as encouraged by the Federal Advisory 
Committee Act.
    Last, we looked at how the committees changed across the 
two most recent Presidential Administrations. We were only 
looking for notable changes, which we described as a 20 
percentage point difference. We looked at four committee 
characteristics: Committee composition, regional affiliation, 
membership turnover, and number of committee meetings held. We 
found notable changes in all of the characteristics, except in 
the number of committee meetings held, for four of the advisory 
committees. For example, we found that the percentage of 
academics serving on EPA's Science Advisory Board decreased by 
27 percent from January 2017 to March 2018.
    In summary, we made two recommendations to EPA. One was 
that EPA follow its committee appointment process for all of 
its advisory committees. The second was for EPA to strengthen 
oversight of its ethics program. So, Chairwomen Sherrill and 
Fletcher, and Ranking Members Marshall and Norman, this 
completes my statement. I'd be happy to answer questions.
    [The prepared statement of Mr. Gomez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you. Next the Chair recognizes 
Dr. Thomas Burke for his remarks.

                TESTIMONY OF DR. THOMAS A. BURKE,

          JACOB I. AND IRENE B. FABRIKANT PROFESSOR AND

                CHAIR IN HEALTH RISK AND SOCIETY,

               BLOOMBERG SCHOOL OF PUBLIC HEALTH,

                    JOHNS HOPKINS UNIVERSITY

    Dr. Burke. Thank you for the opportunity to address the 
Subcommittees today. I'm Dr. Tom Burke, Professor at Johns 
Hopkins University, Bloomberg School of Public Health. I speak 
today as an individual, and my views don't necessarily 
represent those of Johns Hopkins University, or Johns Hopkins 
Health System. Before joining the Hopkins faculty, I worked as 
a New Jersey State official, serving as the Director of Science 
for the Department of Environmental Protection, and then as 
Deputy Commissioner of Health for the State. Most relevant to 
today's topic, from 2015 to 2017, I was the EPA Science 
Advisor, and Deputy Assistant Administrator for Research and 
Development.
    Science has been called the backbone of the EPA. Credible 
and transparent science is core to the EPA mission, and the 
implementation of our national environmental laws. But far 
beyond Washington, the credibility of EPA science is essential 
to State- and community-level local officials, as they respond 
to emergencies, and address concerns about environmental 
pollution. The success of their difficult decisions depends 
upon public trust, and the science that supports them. The EPA 
advisory committees we're discussing today make sure that the 
Agency does the right science, and gets the science right.
    The advisory committees were established to provide the 
highest levels of independent scientific expertise and peer 
review. They allow the Agency to recruit the best and brightest 
to review, critique, and, ultimately, improve EPA science. 
Historically, as was mentioned, appointment to an EPA advisory 
board was seen as a great honor, a recognition that you're 
among the Nation's best in science. The advisory committee 
process provides important oversight and transparency so 
essential to developing public trust. I can speak from my own 
experience at the EPA overseeing a major, and controversial 
study on the impacts of hydraulic fracturing on drinking water. 
The Science Advisory Board assembled an outstanding committee 
of experts, provided an extensive review, including public 
participation, and their review improved both the science and 
clarity of the report, and ultimately advanced our knowledge of 
the impacts of fracking on our waters.
    Today we face unprecedented environmental challenges. Most 
urgently, the broad environmental health and social impacts of 
climate change are upon us, but let me list a few other 
examples. PFAs, or Teflon-related contaminants in our water and 
food, risks from cancer from widely used pesticides, like 
Roundup, lead in our aging drinking water infrastructure, 
harmful algal blooms, hazardous exposures from wildfires, and 
health risks to fenceline communities from industrial chemical 
discharges. These are not obscure science projects. They're 
real life health issues facing virtually every community across 
our Nation. Decisions regarding these issues will require a 
strong scientific leadership from EPA, and the guidance of 
knowledgeable and balanced advisory boards.
    Despite increasing demand on EPA science, the current 
Administration has made major changes, as we've heard, to 
threaten the quality, capacity, and balance of the Science 
Advisory Boards. Also, the recent Presidential executive order 
to eliminate committees presents a yet unknown, but additional 
troubling threat to EPA. I defer to my colleagues to present 
more details on those committees, but I would like to close 
with some observations about the state of science at EPA.
    EPA science is in trouble. During the past 2 years, we've 
witnessed a profound shift in the priorities of the Agency. The 
fundamental mission of protecting health and the environment 
has given way to a focus on deregulation. How else can you 
explain the rollbacks that we've seen that may result in 
thousands of increased deaths and illnesses each year? Sadly, 
the rollbacks of science-based policies have been accompanied 
by a dismantling of the scientific infrastructure by the 
current political appointees. Science has become collateral 
damage in their assault on our environmental health 
regulations. I've attached a table to my testimony that we may 
project on the screen here that provides an overview of the 
many actions that have undermined science. First, the reversal 
of science-based policies, interference with peer review, cuts 
to research--both internal and external--limiting the 
scientific studies supporting regulatory decisions, and 
finally, revising the very methods so well peer reviewed and 
accepted to assess health risks and benefits. These actions, 
left unchecked, will have lasting impacts not only on EPA, but 
the future of our environment, and the health of all Americans.
    Thank you for this opportunity to speak with you today.
    [The prepared statement of Dr. Burke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you. Next we have Dr. 
Swackhamer.

              TESTIMONY OF DR. DEBORAH SWACKHAMER,

               PROFESSOR EMERITA, HUMPHREY SCHOOL

           OF PUBLIC AFFAIRS, UNIVERSITY OF MINNESOTA

    Dr. Swackhamer. Good afternoon, Chairwoman Sherrill, Chair 
Fletcher, Ranking Members Norman and Marshall, Chairwoman 
Johnson, and Committee Members. My name is Deborah Swackhamer, 
and I'm a Professor Emerita from the University of Minnesota. I 
previously served as Chair of the EPA chartered Science 
Advisory Board, and Chair of the EPA BOSC. I speak to you today 
as an environmental sciences and policy expert, and as a 
private citizen, and not on behalf of the U.S. EPA. My 
perspectives and statements are mine alone.
    To start, I want to underscore two important points that I 
elaborate on in my written testimony. First, environmental 
threats are very complex and multi-disciplinary, thus strong 
multi-disciplinary science is essential for EPA to meet its 
mission. The second point, external, independent expert science 
advice is critical to ensure that EPA is supported by the best 
multi-disciplinary science. When the external science advisory 
role is diminished or tarnished by a lack of independence, the 
integrity of the science used by EPA is also diminished and 
tarnished, and this leads to weak environmental protection.
    Now let me speak to BOSC specifically. EPA and ORD (Office 
of Research and Development) science would be diminished 
without an effective BOSC. BOSC advises the Assistant 
Administrator of the ORD on what the scope and direction of 
internal research should be, and to ensure the highest quality 
of the research being conducted. Such ongoing review allows for 
mid-course corrections, and infusion of new and innovative 
ideas. ORD is a relatively small enterprise, and thus BOSC 
plays an important role in keeping it on point. ORD targets its 
research programs to fill in the gaps that external research 
doesn't fill. BOSC helps identify those gaps, identify 
duplication, identify potential external partnerships to 
maximizes effectiveness, and advises on emerging issues that 
EPA research should get a jump start on. Without BOSC, ORD runs 
the risk of getting isolated from outside research advances, 
being unnecessarily redundant and wasteful, and it could easily 
fall behind in focusing on timely issues.
    Interference in the process of appointing BOSC members can 
be highly disruptive to the ability of BOSC to assist ORD. In 
April 2017, the members of BOSC who had served one of their two 
allowed terms were assured by senior ORD staff that their 
appointments would be renewed for a second term. One week later 
the Administrator's Office reversed this recommendation, and 
announced that none of these members' terms would be renewed. 
The reasons given to the media created the perception that the 
intent of the Administrator's Office was to remove independent 
research scientists, and replace them with people having a 
vested interest in the regulatory actions of EPA. In June 2017, 
all of the members of the five BOSC subcommittees who were up 
for second term also had their memberships terminated.
    Regardless of the motive, it meant that BOSC was stripped 
of the vast majority of its members, and scheduled meetings, 
and thus it could not provide timely advice to ORD on a number 
of important pending matters, one being recommendations on how 
to reprioritize research programs as a result of budget cuts. 
The other was the review of the next edition of ORD's strategic 
research plans. It took 6 months to repopulate BOSC, and 
another year to get them up and running. The new BOSC just had 
their first executive committee meeting last month, 2 years 
after those non-renewals. The action on the part of EPA 
resulted in significant disruption of the iterative and ongoing 
process of external scientific advice provided to ORD, 
important time lost while EPA research and planning proceeded 
without the benefit of BOSC advice. It should be noted that the 
Administrator took similar actions against the SAB and CASAC.
    Interference with science advisory boards at EPA is 
consistent with a broader pattern of science misuse by the 
Agency. Why would the Administrator's Office interfere with 
science advisory committees? The aggressive changes made to the 
advisory committee eligibility and composition are 
unprecedented at EPA. It is my concern that they are populating 
the committees with a significant number of members who have a 
vested interest in EPA actions and regulations, thus co-opting 
the committees in order to support the overall direction of the 
Agency to deregulate fossil fuel and other industries, and 
loosen environmental protections, rather than provide 
independent advice based on solid science. The EPA 
administration has demonstrated a pattern of cherry picking 
scientific evidence, of ignoring rigorous scientific consensus, 
or simply politicizing science to justify its actions.
    While regulations can be affected by politics, science 
never should be. Interference with the Science Advisory 
Committees is a direct attack on the integrity of science, and 
leads to an erosion of the scientific underpinning of 
environmental regulations. Thank you.
    [The prepared statement of Dr. Swackhamer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you. And, finally, we have Dr. 
Samet.

                TESTIMONY OF DR. JONATHAN SAMET,

             DEAN, COLORADO SCHOOL OF PUBLIC HEALTH

    Dr. Samet. Good afternoon. Chairwoman Sherrill, Chair 
Fletcher, Ranking Members Norman and Marshall, Subcommittee 
Members, thank you for the opportunity to speak with the 
Subcommittee today. I'm Jonathan Samet, a pulmonary physician 
and epidemiologist, and presently Dean and Professor at the 
Colorado School of Public Health. Today I testify as an 
individual. Much of my testimony relates to the Clean Air 
Scientific Advisory Committee--in my jargon I will hereafter be 
saying CASAC--and I would emphasize that the S is for 
scientific. It was created, as noted, under the 1977 amendments 
to the Clean Air Act. My comments are based on serving on 
multiple advisory committees across a 40-year career, including 
serving as a consultant member for CASAC in 1995-96, when our 
current fine particle standard was implemented, and later 
chairing CASAC.
    During that period, the transition to the current approach 
for development and review of the National Ambient Air Quality 
Standards, or NAQS, was developed. That process is shown here. 
You will notice that it begins on that side, with science, and 
ends on the other side, with the possible promulgation of the 
new National Ambient Air Quality Standard. Along the way there 
are a number of steps. First, the development of the Integrated 
Science Assessment, that brings together what we know about the 
harms from air pollution; the Risk and Exposure Analysis, which 
explores how different changes to the NAQS might benefit public 
health; and finally, a public--a policy analysis that is 
brought to the Administrator as the basis for decisionmaking. 
CASAC provides review of each of these documents through often 
multiple cycles of revision as they are brought to the point 
where they are ready as a base--to be the basis for 
decisionmaking.
    My main points. An effective approach from moving from 
scientific findings to possible revisions of the NAQS has been 
in place for a decade, this latest process. The role of CASAC 
is well-defined and pivotal. Given the scope of the documents 
reviewed, the seven chartered members specified in the 1977 
amendments have generally been augmented by 12 to 15, or more, 
additional panel members to do their job. For example, the 
current ISA (Integrated Science Assessment) for particulate 
matters--matter is 1,800 pages in length. The breadth of its 
science cannot be covered by seven people alone. CASAC's 
ability to provide in-depth scientific review has now been 
limited by the exclusion of EPA-funded researchers, often the 
most knowledgeable in relationship to the NAQS pollutants. This 
follows the 2017 rule on committee membership.
    With the currently ongoing review of the documents related 
to airborne particles, CASAC has been crippled by the 2018 
dismissal of the additional panel members added to complement 
the seven chartered members. The resulting gap in expertise has 
been acknowledged by the chartered CASAC, which has requested 
restoration of the same, or a similar panel. Under the current 
CASAC chair, untested changes in review approaches have been 
introduced that have been disruptive to established CASAC 
processes. Such changes need careful evaluation by CASAC and 
the SAB. As described in detail in my testimony, these changes 
to CASAC membership and functioning are symptomatic of threats 
to the paradigm of moving from a scientific foundation to 
possible revisions of the National Ambient Air Quality 
Standards. Such threats include reduced EPA funding for needed 
research on these air pollution--air pollutants, and the 
potential exclusion of key studies, particularly 
epidemiological studies, through the proposed transparency 
rule.
    In summary, over more than 40 years, CASAC has functioned 
effectively in providing guidance to the EPA as it has 
considered whether and how to revise the National Ambient Air 
Quality Standards. Leading researchers, experts in air quality 
management, and practitioners have served on it. The hundreds 
of panel members have contributed thousands of hours to benefit 
public health. Like others, I'm proud to have contributed to 
CASAC. The integrity of CASAC, and its pivotal role in guiding 
the EPA, need to be maintained. Thank you.
    [The prepared statement of Dr. Samet follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you. And, as the Chair, I would 
like to thank all of our panel for hewing so closely to the 
time limit. Next we'll begin our first round of questions, and 
I'm going to recognize myself for 5 minutes.
    My first question is for Dr. Burke. In your testimony you 
note that being appointed to the EPA Science Advisory Board has 
traditionally considered an honor reserved for the best 
scientists in our Nation. I'm concerned that following former 
Administrator Pruitt's directive, which bars EPA grant 
recipients from serving on advisory committees, this is no 
longer the case. So in your experience, both as a scientist, 
and as the former Deputy Assistant Administrator for EPA's 
Office of Research and Development, how competitive are the EPA 
grants?
    Dr. Burke. Thank you for that question. The EPA grants, 
which are unfortunately now few and far between, as we've seen 
the reduction in the Science to Achieve Results Program at ORD, 
were incredibly competitive, and they were reviewed 
independently from the Agency by experts, and ranked, just as 
we have a review system at the National Institute of Health 
(NIH). They're very competitive, awarded to the best and 
brightest in the field. And, therefore, receiving those grants 
meant a certain degree of recognition out through academic 
science, but also in the general environmental science 
community, just as being appointed to the SAB would be seen as 
that recognition. So they're very competitive.
    What you have, when you omit those folks from the talent 
pool of our Nation's most prestigious advisory board, is a 
skewing that eliminates the best minds. What other area of 
science would you omit the best minds at the start, and not 
consider the potential conflicts of interest of people who may 
have direct financial interest, or have received compensation 
from companies that have a very big vested interest in the 
subject at hand.
    Chairwoman Sherrill. And speaking of conflicts of interest, 
what do you think about the justification for the order that 
precludes them from participating because of a conflict of 
interest?
    Dr. Burke. The--I'm--to clarify the question, the order 
that precludes the----
    Chairwoman Sherrill. Grant recipient.
    Dr. Burke. That conflict of interest--financial conflict of 
interest is something that is very important. However, these 
grant processes are--imagine if we did that from peer reviewing 
of the NIH grants. This is something we deal with in science. 
It's very clear to see if there's a direct conflict, and those 
grant recipients don't financially benefit directly from the 
regulatory decision down the line. This is a convoluted 
process, and it's skewed to eliminate, I think, unfortunately, 
many of the great independent scientific experts in our 
academic community, while not offering similar protections from 
others.
    Chairwoman Sherrill. Thank you. And then my next question, 
industry representatives and consultants are notably not 
included in the directive claiming to strengthen independence 
of Science Advisory Committees, so it's certainly important 
that these boards consist of diverse perspectives. But this 
double standard seems absurd on its face, and it's especially 
concerning considering GAO's finding that appointees' financial 
disclosure forms have not been properly handled. So, Mr. Gomez, 
can you please remind me of what the GAO found regarding the 
Ethics Office's review of financial disclosures?
    Mr. Gomez. Sure. So we did an audit of the financial 
disclosure forms, and so we audited 74 different firms for 
special government employees and the committees, and in that 
review we did find that there were 17 of those forms that had 
not been signed and dated, so there was really a lack of 
assurance that those folks--that EPA had done the review, and 
that those folks were free of conflicts. So one of the things 
that we did is we recommended that the Agency strengthen the 
oversight of the ethics review program to do, for example, 
regular checks, and oversight, and spot checks to ensure that 
its ethics review program is working well.
    Chairwoman Sherrill. And, Dr. Burke, in light of the 2017 
directive, could those on the payroll of regulated industry be 
considered to have ``a conflict of interest,'' at least as 
significant as EPA grant recipients?
    Dr. Burke. One would certainly think so. If you're sitting 
on that board, and a matter of perhaps the toxicity of a 
product from the industry that you work for is being 
considered, that could represent the appearance of a conflict 
of interest, or perhaps a direct financial conflict of 
interest. So that has to be carefully considered in the forms 
in the ethics review. And we all have received training from 
the Agency. It's mandatory before you're appointed to go 
through the training, to understand and report those apparent 
conflicts. We have in science, both at the National Academy and 
through major science advisory boards, ways to work around 
that, and to prevent those conflicts, and they need to be 
enforced.
    Chairwoman Sherrill. Thank you. My time has expired, so now 
I'm going to recognize Mr. Norman for 5 minutes.
    Mr. Norman. Thank you, Chairwoman Sherrill, and I want to 
thank each of the panelists for taking the time to come. Mr. 
Gomez, do you agree that any legislative action requiring 
Federal Advisory Committee should require the membership of the 
advisory committee to be fairly balanced, in terms of the 
points of views represented, and the functions to be performed 
by the Advisory Committee?
    Mr. Gomez. So generally, sir, the charters for each 
committee spell out, you know, the composition, the membership. 
Sometimes Congress may actually dictate, you know, whether 
folks should come from a particular interest. So what we did is 
we looked at, for each committee, what was the charter stating, 
also what are the--any directives, or legislative direction, 
and most of the committees do have that charge of bringing 
balance and--to the committee membership.
    Now, in a lot of the committees that we looked at, there 
isn't really a percentage that says X number should be this, 
and Y number should be that. It is really at--left up to the 
staff at EPA to decide what is it that the committee needs--or 
what is it that the office needs, and they usually try to get 
that into the advisory committees.
    Mr. Norman. So the answer would be yes, you think the views 
should represent the whole committee?
    Mr. Gomez. That's usually what's spelled out in the charter 
for each of the committees----
    Mr. Norman. OK.
    Mr. Gomez [continuing]. Yes, that there should be balanced 
representation, however that's defined.
    Mr. Norman. All right. I'm sure you know this, but there's 
a direct quote from Public Law 92-463, better known as the 
Federal Advisory Committee Act, FACA. With your answer in mind, 
do you think that if one stakeholder group make up over 80 
percent of a single advisory committee that that would be 
fairly unbalanced?
    Mr. Gomez. So, again, in our audit we were looking at what 
process the EPA has in place, and whether EPA followed its 
process. Our audit wasn't looking at whether the representation 
or the composition of the committee was balanced or unbalanced, 
so we don't have an opinion about what the balance should be. 
Our audit was a process audit to look at, hey, did EPA--does 
EPA have a process in place, what is it, and did they adhere to 
that process?
    Mr. Norman. So yes or no?
    Mr. Gomez. Well, we don't have an opinion on that, sir.
    Mr. Norman. OK. According to your report, at one point, in 
2010, academics made up 80 percent of the Science Advisory 
Board. You know, I don't have anything against academics, but 
if that 82 percent of members were from industry, I think we'd 
all point to a pretty big problem. So help me understand. I 
know academics are world leaders in the field, but wouldn't it 
be beneficial to have different perspectives, at least more 
than 18 percent of membership, from consultants and non-
governmental organizations (NGOs)?
    Mr. Gomez. Again, we don't have an opinion on what the 
makeup of the committee should be. You know, that's something 
that comes from EPA, in determining what is it that they need, 
representation, and if there's any direction, either 
legislative direction, or direction from the charters.
    Mr. Norman. OK. I get that you don't have an opinion on it, 
but wouldn't it make sense to have different perspectives from 
these other groups, other than academia?
    Mr. Gomez. I think so. I mean, I think that's what a lot of 
the committees call for. They want independent scientific 
advice from a variety of viewpoints, yes.
    Mr. Norman. OK. Thank you. And last, Mr. Gomez, this GAO 
report was made public yesterday, at 1:35 p.m., just barely 
over 24 hours before the gavel today. As far as I'm aware, none 
of the minority Members on this Committee were offered a chance 
to review a draft copy, but the majority was able to send out a 
summary of the full report just 3 minutes later. Did you 
provide the majority with a draft copy of this report before 
the hearing?
    Mr. Gomez. We did not, sir.
    Mr. Norman. Then how else could the majority have obtained 
a copy of this report?
    Mr. Gomez. So I think the majority maybe can speak where 
they obtained the copy of the report, so--we--so the report was 
for Senate staff, Senate requestors, and so the, you know, 
whoever requests the report can give it to whoever they decide, 
so----
    Mr. Norman. But you didn't provide it?
    Mr. Gomez. No.
    Mr. Norman. OK. Thank you. Appreciate it. I yield back.
    Chairwoman Sherrill. And next the Chair will recognize 
Chairwoman Fletcher, 5 minutes.
    Chairwoman Fletcher. Thank you, Chairwoman Sherrill. 
Speaking of the GAO report that was released yesterday. It did 
highlight a couple of areas of concern in the EPA's process for 
appointing members to advisory committees. First, as discussed, 
that the Agency didn't follow its own internal appointment 
process for two major scientific advisory committees, the CASAC 
and SAB. In EPA's response to the GAO's report, they stated 
that the process the Agency used for appointments to SAB and 
CASAC was more rigorous than the membership grid procedure that 
is standard for all other committees, and requested GAO remove 
its first findings from the report entirely. However, it's 
interesting to note that this supposedly more rigorous process 
was not utilized for other committees. Mr. Gomez, did you find 
any evidence that EPA used in-person briefings for other 
advisory committees, perhaps in addition to the prepared 
membership grids?
    Mr. Gomez. We're not aware of that. So for the--it's only 
for the two committees that we found, where they deviated from 
the process. So we're not aware that this was also done for the 
other committees.
    Chairwoman Fletcher. And if you found that it was only done 
for these two committees, how did EPA justify its use of this 
supposedly improved procedure for only two of its committees?
    Mr. Gomez. I mean, that's a good question. They didn't 
justify it to us, except that the explanation was just that 
they deviated, and came up with an alternative process. We 
don't understand why--or why they also didn't follow their 
established process.
    Chairwoman Fletcher. So what is GAO's assessment of the 
procedure used for SAB and CASAC appointments, and the 
elimination of the membership grid?
    Mr. Gomez. So, again, we looked at what the Agency is 
required to follow, according to their Handbook, and we lay out 
those procedures, and one of those key steps was that they 
develop these grids that, you know, has relative 
qualifications, and it's also the staff's recommendation for 
the best qualified staff. And so we don't understand why EPA 
didn't follow that for these two committees. It's not clear to 
us why, and so we don't have an explanation.
    Chairwoman Fletcher. Did EPA indicate to you that this new 
examination, more rigorous examination of candidates, was going 
to become incorporated into the Agency's Handbook?
    Mr. Gomez. We asked that question, and we did not get a 
response as to whether this new alternative process is going to 
be a new procedure in their Handbook.
    Chairwoman Fletcher. OK. Thank you. And one last question 
on this particular topic, is it unusual for agencies to request 
findings be removed from draft reports? What information would 
agencies need to provide to you to compel GAO to change its 
report findings?
    Mr. Gomez. Sure. So we have a standard practice of giving 
agencies our draft reports because we want their reaction, 
right? We want them to review what we have to make sure it's 
accurate. And so they generally will provide us comments, and 
sometimes it happens that we disagree, right? We disagree, and 
we generally want to have data and information because, you 
know, we are data driven, so we want to assess the data, if 
there's additional data. In this case, we didn't get any 
additional data from EPA to allow us to make any additional 
assessment. So sometimes it happens, and, as you noted, it's 
recorded in the report.
    Chairwoman Fletcher. Thank you. One additional topic I want 
to touch on, the GAO also found that 23 percent of the Advisory 
Committee members appointed as special government employees 
(SGEs) did not receive a signature from an ethics official on 
their SGE filing form, which ensures an employee's compliance 
with Federal ethics rules. Are you able to comment on the 
nature of the SGE ethics forms that remain unsigned?
    Mr. Gomez. So that's a good question, and I think we can 
provide for the record, like, where those forms were. I do know 
that some of those forms were for members of the SAB, but we 
can give you a listing of the committees that those pertain to.
    Chairwoman Fletcher. Thank you, we would like to see those. 
Will the GAO be conducting any additional research into the 
individuals who had not yet received signature on their ethics 
forms?
    Mr. Gomez. Not additional reviews, no.
    Chairwoman Fletcher. And have you seen this occur in other 
instances during your tenure at GAO? Is this a common 
occurrence, or an unusual occurrence?
    Mr. Gomez. So I'd have to get back to you on that, because 
I want to doublecheck to see if there have been other audits 
that we've done at other agencies, where we're looking at their 
ethics program, and to see whether, in fact, we found similar 
findings. So we can check to see if there are other audits 
we've done governmentwide, or other agencies, but I'm not aware 
at this moment.
    Chairwoman Fletcher. Well, can I take it from your answer, 
that this is something that you have to research and go back 
and look at, that this isn't a common or routine occurrence, 
that you would expect for so many ethics forms to be missing, a 
quarter of them?
    Mr. Gomez. Again, I don't know what--how it's at other 
agencies, whether--I mean, this was, for us, a finding that 
rose to the level of us making a recommendation, because we saw 
so many forms that hadn't been properly reviewed, signed, and 
dated, and so that concerns us, because we want to make sure 
that EPA has a good process in place to ensure that they are 
doing ethics reviews on a timely basis, again, to ensure that 
there are no conflicts of interest. So we thought it was 
important enough that it rose to the level of a recommendation 
that we made to EPA. EPA has agreed with our recommendation, 
and, as I understand it, they've already taken steps to improve 
that process.
    Chairwoman Fletcher. OK. Thank you, Mr. Gomez. We'll look 
forward to receiving the additional information from you, and I 
have gone over my time, so, Madam Chairwoman, I yield back.
    Chairwoman Sherrill. Thank you. The Chair now recognizes 
Ranking Member Marshall for 5 minutes.
    Mr. Marshall. Yes, thank you so much. I'll keep with Mr. 
Gomez for a second. Want to continue to talk about this 
alternative process of evaluating candidates. Did you feel that 
what they did do in these two instances was as rigorous as the 
prescribed Handbook procedure?
    Mr. Gomez. Well, sir--so we didn't have an opportunity, 
because we didn't get any data on what EPA did, so EPA just 
told us that they had briefings with senior management, where 
they discussed the advantages and disadvantages, or plus and 
minuses, of candidates. But for all the other committees that 
we viewed, you know, we had those grids, those documents. We 
were able to see these--this is how the committee nominated 
folks, and this is who they viewed was most qualified. For EPA, 
we weren't able to see that, so we weren't able to make that 
assessment.
    Mr. Marshall. In those two, but in the other 20 committees, 
from a broad, holistic perspective, did you think the EPA was 
doing a satisfactory job in their advisory board appointments?
    Mr. Gomez. Yes, sir.
    Mr. Marshall. OK. Maybe go back to everybody left, the 
witnesses, do you feel there's any two committees that EPA 
could eliminate, Dr. Samet?
    Dr. Samet. I would actually probably defer to my colleague, 
Dr. Burke, who has a broad perspective on the various 
committees. And, given the broad--breadth of EPA science, its 
multidisciplinary, I suspect that there's a rather lean set of 
committees, but I would defer to Dr. Burke on this.
    Dr. Burke. There are, I think, 18, 18, and 22 committees at 
EPA, and they represent a tremendous amount of different 
interests. For instance, there's a Committee on Environmental 
Justice, there's a----
    Mr. Marshall. I'm sorry, it's kind of a yes or no. Do you 
think there's some that could be eliminated?
    Dr. Burke. I would think that, as has been mandated by the 
executive order, to carefully study and understand the criteria 
would be necessary before saying they should be eliminated, 
so----
    Mr. Marshall. But they could be absorbed, or combined, or 
something like that?
    Dr. Burke. I would really defer to the process on that. I 
can't say. I found them to be tremendously influential and 
important, and particularly important to the business 
community, as----
    Mr. Marshall. And there is a process that if they're 
declared essential, we can bypass that. I'll go back to Mr. 
Gomez. Looking at your charts on just the proportion of 
academic members in a committee, your SAB report, 22 academic 
members, and there's five industry members, about an eighth of 
it is industry. What is an ideal ration of academic to non-
academic, and how do you get there?
    Mr. Gomez. Again, that's a good question, and I think that 
that's driven, as I mentioned earlier, by the charter of the 
committee, and whatever the needs are of EPA, to make those 
determinations. Again, we were not looking at what's the proper 
composition. That wasn't our focus. Our focus, again, was a 
process audit, to look at what's the process, did EPA follow 
the process, and if not, you know, what is it they can do to 
improve it?
    Mr. Marshall. Yes. I mean, I kind of look at things through 
healthcare, since I'm a physician, and I think of 
recommendations for pap smears and mammograms, and the academic 
folks telling us you only need a pap smear every 3 years, young 
women don't need mammograms, but I was the person down there 
with the experience, trying to tell a woman why she didn't need 
that pap smear, or didn't need a mammogram, and really I 
thought it was in her best interest to get it. And I really 
think that there's a great place for people from industry, and 
non-academics. And I guess I would almost take exception that 
people on the committees are the best and the highest 
qualified, with my experience in medicine is the brightest, the 
greatest, were so busy, so popular, had such a long waiting 
list, they didn't have time to do some of these committees. So 
I think it's a different pool of people that are even available 
to have the time, and really think that we should keep really 
emphasizing non-academic members on some of these committees. 
So, with that, I'll yield back the remainder of my time.
    Chairwoman Sherrill. Thank you. And next the Chair 
recognizes Representative Lamb for 5 minutes.
    Mr. Lamb. Thank you, Madam Chairwoman. Dr. Burke, I just 
wanted to ask you kind of a series of questions with pretty 
short answers, if you don't mind. You have appointments at 
Hopkins in both Environmental Health and Oncology, is that 
right?
    Dr. Burke. Yes.
    Mr. Lamb. And is that because, over time, we've learned 
that there can be a link between industrial activity, and what 
that puts into the environment, and rates of cancer among 
people that work there, or people that live near wherever that 
site is?
    Dr. Burke. Yes. I've devoted my career to that kind of 
science.
    Mr. Lamb. So could we actually say, in some sense, your job 
has to do with trying to prevent cancer in people that live 
near these places? You're studying the effect that it has in 
the hope that maybe at some point we can do things to prevent 
people from getting cancer?
    Dr. Burke. I think that's what epidemiologists strive for, 
not just for cancer, but for all environmentally related 
diseases.
    Mr. Lamb. Right. And in doing that, do you employ something 
called the scientific method?
    Dr. Burke. Yes.
    Mr. Lamb. And there's different ways to describe that, but 
I remember, at least from being in school, that the scientific 
method is a process that we've constructed over the years, 
where maybe first you observe, and then you measure things, and 
then you might do experiments, and then you construct a 
hypothesis, but then you continue to change that and refine it 
as you learn more. Is that, like, a fair general description of 
the scientific method?
    Dr. Burke. Absolutely.
    Mr. Lamb. OK. Now, when you start out on any scientific 
problem, and you want to employ the scientific method, is it 
important that you try to eliminate, or put to the side, any 
biases that you might have about the problem before you start 
it?
    Dr. Burke. I think it's important from the start to the 
finish of scientific work to try and understand biases, and to 
put them forth, and to deal with them throughout the process.
    Mr. Lamb. Yes. And that's actually--would you say that's 
kind of what separates a real scientist from, say, an advocate, 
or even, like, a politician like me?
    Dr. Burke. I'm so glad you mentioned that, because we're 
getting our signals mixed here today between stakeholder 
comment and scientific peer review. I agree that stakeholders 
have an enormous role to play in policy decisions, but with 
scientific peer review, it's about expertise, and the right 
disciplines at the table.
    Mr. Lamb. Thank you. Yes, I thought the use of the word 
stakeholder was a little bit odd as well, because if you have 
someone, for example, like you, who has chosen to devote their 
career to trying to prevent people from getting cancer, it 
doesn't really seem to me like you have a stake, other than 
just what's good for society. So I don't know that that's the 
best word to use to describe your role in the process. And I 
thought your list was great of the most challenging and 
pressing environmental problems right now, because I think you 
had eight on there. Of those eight, seven of them pretty 
directly impact people in western Pennsylvania, where I'm from, 
every single day, just due to our history, and the economic 
activity that we have right now.
    So just to pick one, you mentioned the report that you 
worked on about the impact of fracking on drinking water, and 
western Pennsylvania is more or less the capital of hydraulic 
fracturing, at least in the northeast. I have lots of 
constituents that live near drilling sites, that have family 
members that live near drilling sites. We have well pads at our 
airport, which, you know, a lot of people in our region go 
through all the time. So the main thing that we all want to 
know is that when we turn on the tap in our houses, or you 
drink water from the fountain at the airport, whatever it is, 
that there's a pretty good chance you're not being poisoned, or 
being exposed to something that can give you cancer. And we 
know that none of us are ever going to know that for sure. I 
don't know exactly where every well pad is, or how it's 
influencing, but you want to have some trust there, right? We 
always say a cop on the beat. I mean, that's a fair analogy, 
right, the idea that you guys are neutrally investigating for 
the good of the public about these questions, right?
    Dr. Burke. Yes.
    Mr. Lamb. So that report that you did while you were at 
EPA, and you used the Science Advisory Board as part of that, 
would that be part of that process, kind of, of being the cop 
on the beat to protect the public, and the water that they 
drink, in a place like mine?
    Dr. Burke. I might use a different analogy. We weren't 
cops. It wasn't a regulatory report. It was trying to do public 
health to understand a fundamental question, are the activities 
related to fracking impacting our water resources, particularly 
our drinking water resources, because that was the burning 
question.
    Mr. Lamb. Yes, it's a good point. You're kind of doing the 
part of the cop's--I'm a former prosecutor, which is why I use 
that analogy, but you're doing the part of the cop's job that 
actually comes first, which is just that basic act of 
observing, and measuring, and recording what happened.
    Dr. Burke. Right.
    Mr. Lamb. Before we decide who we need to arrest or 
prosecute, what exactly happened here is a question of fact. 
And so, doing that report, you had to use the scientific 
method, again, in order to determine what might be happening to 
our drinking water, right?
    Dr. Burke. Yes, sir.
    Mr. Lamb. And wouldn't it be fair to say that to learn 
about our drinking water using the scientific method, to write 
a scientific report, it would've been a good idea to have 
actual scientists involved in that process, right?
    Chairwoman Sherrill. And if you could answer quickly? The 
gentleman's time has expired.
    Dr. Burke. Yes. And they were, and it was a very rigorous--
--
    Mr. Lamb. And that's what you were trying to do. Thank you. 
I'm sorry I went over my time. And, as you noted, I'm sure 
we'll continue to explain, there are lots of ways that the 
industry has input into this process along the way, because, as 
you noted, you were not making the regulation. You were finding 
out what happened, and what could be happening, to our drinking 
water, and I thank you to that. I yield back, Madam Chairwoman.
    Chairwoman Sherrill. Thank you. And now the Chair 
recognizes Representative Babin for 5 minutes.
    Mr. Babin. Thank you very much, Madam Chair, and thank you, 
witnesses, for being here today. Mr. Gomez, are EPA ethics 
officials, are they career staffers?
    Mr. Gomez. Yes, sir.
    Mr. Babin. OK. So, from your finding and recommendation, 
you're saying that EPA career officials, however many in number 
they may be, are not doing their job? Is that what you're 
saying?
    Mr. Gomez. So our finding was that, yes, I mean, we found 
cases, 17 cases, where the financial disclosure forms had not 
been signed and dated, so really there was no assurance that 
someone had reviewed them. We also did find cases where, you 
know, forms weren't reviewed and signed within the allowed 
time, 60 days, and so the explanation that we got from EPA was 
that they were short staffed in that office, and so, since 
then, they've added additional people, and they have noted that 
they're doing a more regular review to make sure that the folks 
that are sometimes the designated folks to review those forms 
are doing it in the right way, and within the right amount of 
time.
    Mr. Babin. OK. Thank you. And then, as the Ranking Member 
on the Space Subcommittee, I have the pleasure of hearing from 
NASA witnesses on almost a weekly basis, and yet it seems it's 
not very often that someone brings up criticism of their 
advisory boards, especially any that may be as large as the EPA 
Science Advisory Board. Is it fair to say that the Federal 
Advisory Committees at NASA would share the same essential to 
best science outlook as EPA's committees? Dr. Burke?
    Dr. Burke. Yes. I would hope that all the agencies--I'm 
sorry.
    Mr. Babin. OK.
    Dr. Burke. I would hope that all agencies depend upon 
Federal advisory committees that do bring the kind of expertise 
they need, especially science agencies like NASA, like 
Agriculture, like EPA.
    Mr. Babin. OK. And anybody else want to take a stab at 
that? OK. All right. And along with the two Ranking Members 
here today, I have my concerns on the scope of this hearing. 
NASA has some crucial advisory committees. Department of Energy 
has some crucial advisory committees, and so does the National 
Science Foundation. The list goes on. Science informs decisions 
at agencies other than the EPA, and I think this hearing 
could've been a chance to hear from all of them, instead of 
repeating this show at the Full Committee level in a couple of 
weeks. And, with that, I yield back, Madam Chair. Thank you.
    Chairwoman Sherrill. Thank you. The Chair now recognizes 
Representative McAdams for 5 minutes. Is he here? He's not 
here, so we will go on to Representative Wexton for 5 minutes.
    Ms. Wexton. Thank you, Madam Chair, and thank you to the 
witnesses for appearing today. Much has been said, both today 
and over the past 2-1/2 years by observers of EPA's actions, 
about the danger of politicizing these boards, and filling them 
with unqualified appointees, climate deniers, and a high number 
of individuals who are financially dependent on regulated 
industries. In its report, the GAO pointed to BOSC as a 
committee with unusually high turnover--71 percent of those on 
BOSC on January 19, 2017, were no longer serving on the Board 
15 months later. This mass exodus of individuals who are aware 
of the specific purpose and functioning of BOSC is concerning. 
Dr. Swackhamer, why is it important that these advisory boards 
include a number of individual members with experience advising 
the Agency? Why do we need to make sure we do that?
    Dr. Swackhamer. Thank you for that question. I think it's 
always important not just for BOSC, but for lots of these 
advisory committees, to have some expertise from previous 
generations of these boards, you know, previous iterations of 
these boards, to carry forth understanding of what's going on 
before them, the depth of some of these issues. Some of these 
issues take more than 2 or 3 years to actually get through, and 
so you need a certain number of people on the committee that 
understand that context. They provide a lot of context.
    The other thing is that EPA is actually a very complicated 
Agency, and to understand the science that's being done at EPA 
actually takes quite a while to figure out who's doing what, 
how it's--how it connects to the regulatory mission of EPA. 
It's a complicated--often it's called a Byzantine Agency. And 
so, you know, it probably took me, you know, a full year of 
being on BOSC, before I was chair, to even understand how it 
all worked. And so you kind of come in as a freshman, and you 
learn the ropes. And so then to lose, you know, 80 percent, 70 
percent of that expertise in one fell swoop was devastating. 
And, of course, it then took months to even bring in new 
people. But now the new BOSC is considerably made up of 
freshmen.
    Ms. Wexton. And that impacts their effectiveness as an 
advisory committee, would you agree?
    Dr. Swackhamer. I think it just means that their learning 
curve--they're still on a learning curve, instead of being at 
the top of that learning curve, and they're not benefiting from 
having enough people on that committee who can kind of bring 
them up to speed, and provide that expertise.
    Ms. Wexton. Very good. Thank you. Dr. Samet, thank you for 
your thorough overview of CASAC's role in developing adequately 
protective standards for the health and safety of Americans. It 
concerns me that the Administration that is so bent on diluting 
science's role in regulatory decisions is now responsible for 
creating these important standards. In particular, the EPA has 
cut expert subpanels on particulate matter and ozone, but it 
seems they are still planning on completing the regulatory 
process by the end of next year. Dr. Samet, is EPA permitted to 
raise the allowable threshold of a pollutant?
    Dr. Samet. The Clean Air Act requires that the 
Administrator set a standard that is protecting the public 
health, with an adequate margin of safety, for the National 
Ambient Air Quality standard pollutants. In that context, given 
the lengthy record of evidence review and findings that the 
standards are either protective, or, in the case of particulate 
matter and ozone, in fact, there's concern that we cannot 
achieve standards that will provide that protection with an 
adequate margin of safety, it would be difficult for me to see 
how a true science-based review would lead to the possibility 
of raising the standards. It certainly is a concerning 
possibility, but, given the mandate--strong public health 
mandate of the Clean Air Act, I would hope that the possibility 
to which you refer would never take place.
    Ms. Wexton. So does it appear to you that the EPA is 
setting the stage for weakening the standards for ozone and 
particulate matter, from what you have observed?
    Dr. Samet. The questions that will come to the 
Administrator would be whether the NAQS for either ozone or PM 
needs to be revised. The science processes that would lead to 
that decision have typically been looked at as--the possibility 
of lowering the standard values. Perhaps one of the threats 
could be that evidence that has been viewed in the past is 
supporting evidence of harm, and the need to reduce the 
standards, would be set aside under some of the approaches for 
evidence evaluation and inclusion or exclusion, i.e. the 
transparency rule, as an example, which probably most threatens 
epidemiological evidence.
    Ms. Wexton. And, in your view as a pulmonary physician and 
as an epidemiologist, would it be scientifically justifiable 
for the EPA to weaken the standards for ozone and particulate 
matter at this time?
    Dr. Samet. From my----
    Chairwoman Sherrill. And, again, if you could just go 
quickly? The gentlewoman's time's expired.
    Dr. Samet. OK. From my own perspective, the evidence, 
particularly the epidemiological evidence, indicates ongoing 
risk at current levels of exposure.
    Ms. Wexton. Thank you. Thank you, Madam Chair, for your 
indulge. Yield----
    Chairwoman Sherrill. Thank you. And now the Chair 
recognizes Representative Baird for 5 minutes.
    Mr. Baird. Thank you, Chairwomen Sherrill and Fletcher, and 
Ranking Members Norman and Marshall, and I really want to thank 
the witnesses for being here today. And my question goes to 
each of you, or all of you, and it has to do with the fact that 
all of you are very familiar with the Science Advisory Board, 
but the National Academies have a similar process in putting 
together their panels. Do you think the SAB, or other advisory 
committees, could mimic parts of that National Academy process, 
and if so, what would be the benefits of doing that? And, Mr. 
Gomez, you can start--or, no, I see Mr. Samet's ready to go.
    Dr. Samet. Thank you. I'll speak to this as a more than 20-
year member of the National Academy of Medicine, previously the 
Institute of Medicine. I'm quite familiar with those processes. 
There the committees are addressing particularly charged 
questions, and assuring that both there's a balance of 
scientific views on whatever the matter may be, and that there 
is no conflict of interests. In a sense, the process is 
somewhat akin to that of the Agency in picking the scientific 
disciplines that need to be represented to provide guidance to 
the Agency. There are certainly, at the National Academies, 
considerations of potential conflicts of interest and ethics. A 
potential conflict alone might not be the basis for exclusion 
of someone from a panel. It's typically a balance of scientific 
views on matters that are sometimes complex, that it is an 
underlying principle.
    Dr. Swackhamer. I can just agree with that, that I'm--I 
have been on many National Academy committees. I currently 
serve on two of their committees, and have been involved with 
the EPA science advisory advice for more than a decade. And I 
would say that the number one criteria from both of those 
bodies, organizations, is to make sure that, at the table, you 
have the right array of expertise, and the right perspectives. 
And so, on committees for the National Academy, as well as 
committees at EPA, you always have some industry perspective, 
some NGO perspective, some State perspective, hopefully some 
Native American perspective. You have community perspective and 
urban perspective, you have--on all the sciences as well. And 
so the number one driving parameter is making sure you have the 
right science at the table.
    Dr. Burke. And I would just add the Academy goes to great 
measures before each study to evaluate potential financial 
conflict of interest, even the appearance of conflict of 
interest, and every member of a committee continually updates 
that information. And so, yes, the Academy process is a great 
model, and in the past I think the EPA Science Advisory Board, 
and other scientific committees, tried to imitate, and use 
those good provisions that have helped us prevent bias and 
conflict.
    Mr. Gomez. So GAO also works directly with a number of 
National Academy of Science panels and committees. Sometimes we 
convene our own expert panels with the help of the National 
Academies. So what I would just say, that whether it's a 
National Academies panel, or an EPA advisory committee, that 
the selection process is transparent, is well-documented, so 
that people can see what's taking place.
    Mr. Baird. So thank you, and I yield back my time.
    Chairwoman Sherrill. Thank you. Next, the Chair recognizes 
Representative Beyer for 5 minutes.
    Mr. Beyer. Thank you, Madam Chair, very much, and thank you 
all very much for being with us, Dr. Swackhamer with us again. 
I remember when you came to testify before us in 2017. That was 
the day we were shocked to learn that, on the day of the 
hearing, an EPA political appointee attempted to alter your 
testimony, encourage you to mislead the Committee on important 
facts, despite the fact that you were invited to testify as an 
independent scientist, and that you had actually cleared your 
participation with the EPA Ethics Office ahead of time. So we 
were aghast. My colleagues and I referred this to the EPA 
Inspector General, but we have not yet heard of the final 
judgment. Have you been contacted and had discussions with the 
Inspector General along the way?
    Dr. Swackhamer. I have not.
    Mr. Beyer. That is not the answer I was expecting, but I'm 
stunned, and I think we will follow up with that again. So you 
have no sense of when the Inspector General is prepared to do a 
final report on this?
    Dr. Swackhamer. No, I do not.
    Mr. Beyer. Did you experience any pressure from the EPA 
today?
    Dr. Swackhamer. No. Once again, because I continue to hold 
a special government employee appointment at EPA, I did clear 
my participation here with the Ethics Office at EPA.
    Mr. Beyer. So there's progress from 2 years ago, that you 
at least weren't pressured this time, right, so----
    Dr. Swackhamer. Right.
    Mr. Beyer. Dr. Burke, you wrote, among other things, that 
the advisory committees were established and structured to 
provide EPA with the highest level of independent scientific 
expertise and peer review, emphasis on the word independent, be 
able to recruit the best and brightest, and elsewhere the AP 
was quoted as saying that the Administrator's Office was 
attempting to remove independent research scientists, and 
replace them with people having a vested interest in the 
regulatory actions.
    My friend from South Carolina talked earlier about--asked a 
question about fair and balanced--that's a fun phrase--and was 
somehow arguing that 80 percent academics would make it 
unfairly balanced. Can someone who is paid by the industry, 
that has a strong profit motivation, whose interests are 
dominated by shareholder value, ever be expected to come to 
something like that without an industry agenda? And can they 
ever be expected fairly to come with an independent scientific 
agenda when they're being paid by an industry to represent 
them?
    Dr. Burke. Let me speak from experience. I've been in this 
role a long time as a regulator and as a scientist, and in my 
long experience in environmental protection. When the industry 
folks come and present their science, it very rarely comes down 
on the side of protecting public health, and pointing out to an 
agency, perhaps, that they have a hazard there. Rather, it's to 
push back on public health measures, whether it's a level for 
cleanup, a standard that you're setting. So, sure, it's in the 
interest of an industry to protect their business interests, 
and you expect that. That's a source of bias. We have to 
control that.
    Somebody getting their paycheck to work for that industry, 
would that be a potential conflict of interest? Yes, and that 
should be made clear, and it should be balanced in the process. 
On the other hand, when you need expertise, like we did for the 
fracking report, where else to go but the oil and gas industry 
to get the best engineers, and the people who understand the 
process? So you have to be able to tap that industry expertise 
and genius, but also balance the biases.
    Mr. Beyer. OK. As a small businessperson, our family 
business has been selling cars, I have often gotten upset when 
somebody's promoting a Chevrolet when we don't represent that 
product, you know? And as 5 years on this Committee, I've so 
often seen the industry representatives come specifically to 
talk about why we are trying to regulate their industry too 
much, why it's too high a standard for ozone, or the like.
    Dr. Samet, one of the other things that showed up here was 
the old discussion we had, where in this Trump era revisions, 
if a scientist got an EPA grant, they weren't allowed to serve 
on the Scientific Advisory Boards, but there was no such 
restriction on the industry scientists. Doesn't this asymmetry 
strike you as remarkable?
    Dr. Samet. The asymmetry is concerning. And, again, people 
get grants, as Dr. Burke pointed out, because they're able to 
compete for funding at the highest level, and to lose that 
large pool of expertise potentially harms the review process.
    Mr. Beyer. I agree. Thank you. Madam Chair, I yield back.
    Chairwoman Sherrill. Thank you. And the Chair recognizes 
Representative Tonko for 5 minutes.
    Mr. Tonko. Thank you, Madam Chair, and thank you to our 
witnesses for today's hearing on what is an increasingly 
important topic, and it's great to hear your perspectives. 
Credible independent science and evidence should shape Federal 
policy without the distorting effects of inappropriate 
political interference or conflicts of interest. Science 
advisory boards are staffed by the top experts in their field. 
These are the people who understand the science best, and can 
be trusted to help ensure that our air is clean, that our water 
is safe to drink, and that toxic chemicals aren't released into 
our environment to harm our families and communities.
    Rather than listening to and respecting science, the Trump 
Administration is focused on removing as many of these 
scientific experts as they can off of America's Federal science 
advisory boards. As these credible independent scientists are 
being pushed out, the Administration's political leaders are 
working to replace them with industry advocates, and for-profit 
consultants. As a result, admittedly unqualified people are now 
in positions where they are reviewing issues they don't fully 
understand. In fact, many of these replacements are consultants 
on a corporate payroll, with many real conflicts of interest. 
These board positions are critical for safeguarding the public 
health and safety of millions of Americans. We need to know 
that the people who serve on these boards are working toward 
the best interests of the American people, and not sacrificing 
public good for the private gain of their employer.
    So we must ask ourselves, why would the Trump 
Administration shut out the scientists and experts who know 
these issues best? We sounded the alarms when these actions 
were first proposed. Our fears have now been realized, that 
this Administration continues clearing out scientific experts 
to make room for non-experts bought and paid for by private 
industry. This is shameful, and all of us will pay the price.
    So, Dr. Samet, on April 11, 2019, the chartered CASAC 
issued a letter to Administrator Wheeler, accompanying its 
review of the draft Integrated Science Assessment, or the ISA, 
of particulate matter. In the letter they state that they are 
not equipped to provide a comprehensive review, lacking, 
amongst other specialties, an epidemiologist and a 
statistician. Administrator Wheeler has yet to respond to this 
recommendation. A, in your experience as CASAC chair, is this 
type of letter precedented?
    Dr. Samet. To ask for additional expertise beyond the seven 
chartered members was never necessary because the panels were 
always supplemented by the array of experts that was needed. I 
won't bore you with all the details of the 1,800 pages of the 
ISA, except to say that a broad group of scientists is needed 
to review it, well beyond the expertise of any seven people, 
and when CASAC wisely requested restoration of the panel, or a 
similar group, they did the right thing.
    Mr. Tonko. And what is your perspective on the 
reinstatement of the PM and ozone panels?
    Dr. Samet. I think that CASAC will be unable to do its job, 
remembering that this is only the first of three documents that 
they need to look at, without having additional expertise, 
particularly in epidemiology, which has been critical to both 
the PM and ozone standards, and in statistics, to go through 
the complicated analyses that are done to pull out the results 
to show the risks.
    Mr. Tonko. And what do you think is the consequence of 
Administrator Wheeler ignoring this request, and accepting the 
review submitted by a panel that admits it is unqualified?
    Dr. Samet. Well, I use the word crippled. The CASAC is, in 
fact, crippled, and I think that is a fair description. If you 
look at the comments, they are lengthy. They try to do their 
job, and, in doing so, they recognize that they could not do it 
the way they should.
    Mr. Tonko. And can CASAC's review of the PM ISA be 
considered actionable, given that they have identified 
deficiencies in their capabilities to conduct what would be a 
thorough review?
    Dr. Samet. CASAC has requested revisions to the PM ISA, and 
once done, they will certainly need the broad range of 
expertise they've called for to do their job.
    Mr. Tonko. Thank you. And, Dr. Burke, in your testimony you 
touch upon how the Advisory Committee process is one that 
prioritizes and ensures transparency in the Agency's scientific 
decisionmaking. Why is transparency so vital, so important?
    Dr. Burke. I think trust is vital to any successful policy. 
Transparency in the process of science, inclusion of broad peer 
review, public comment, is really essential to the way we build 
our policies in this country.
    Mr. Tonko. And do you anticipate that the June executive 
order cutting FACA committees will impact agencies' 
transparency to----
    Dr. Burke. I am very concerned about representativeness and 
feedback during the development of policy if we lose an 
enormous amount of our advisory committees, yes.
    Mr. Tonko. Do any of our other witnesses care to comment on 
the executive order?
    Chairwoman Sherrill. And if you could be quick? The 
gentleman's time has expired.
    Dr. Swackhamer. Since BOSC has been identified as one of 
those discretionary committees not established by Congress, but 
by the administrators themselves some time ago, in 1996, I 
would be--I think it would be a tremendous loss to EPA, and to 
the Office of Research and Development, if they lost the 
expertise and the advice of BOSC.
    Mr. Tonko. Thank you very much. And, Madam Chair, I yield 
back.
    Chairwoman Sherrill. Thank you. At this point, before we 
bring the hearing to a close, I want to thank our witnesses for 
testifying here today. The record will remain open for 2 weeks 
for additional statements from the Members, and for any 
additional questions the Committee may ask of the witnesses. 
The witnesses are excused, and the hearing is now adjourned.
    [Whereupon, at 4:05 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
